          AUDIT REPORT 

SMITHSONIAN TROPICAL RESEARCH INSTITUTE 

      INFORMATION SYSTEMS REVIEW 


              Number A-03-04 


              March 27,2003 

                                      SUMMARY

The Office of the Inspector General audited information system controls at the
Smithsonian Tropical Research Institute (STRI). The purpose of the audit was to evaluate
information system controls regarding system access, server and network security, change
and configuration management, physical security, and disaster recovery.

The following points were considered throughout our audit. Adequate security of
information resource systems is a fundamental management responsibility. Of necessity,
management must strike a reasonable balance between information technology security
and operational capability.

We conducted interviews regarding the daily administration of technology resources with
staff from STRI Information and Technology. We also spoke with representatives from
the HSBC Bank. Through interviews, we gained an understanding of the practices
employed concerning system configuration, network analysis, system access, disaster
recovery, change management, physical conditions, and financial wire transfers.

Overall, STRI did have some system security controls in place regarding system backup.
However, we determined that STRI system security configurations and safeguards were
inadequate and the risk to system access and data integrity was high. It is Smithsonian
policy, as well as good business practice, that controls be established to maintain
accountability for the custody and use of resources and to provide reasonable assurance
that assets are safeguarded against loss or unauthorized use. Therefore, we made 11
recommendations to improve systems security and general system controls at STRI. The
recommendations to STRI included:

       secure current identified vulnerabilities;
       perform a systems security review as defined in Smithsonian Technical Standard
       and Guideline IT-930-0 1, Automated Information System Security Planning;
       develop and implement a semiannual security assessment process for system and
       network assets based on Office of the Chief Information Officer and industry
       standards;
       use technical guidance to develop, document, update, and implement server and
       client configuration settings;
       develop and implement a disaster recovery plan in accordance with Smithsonian
       policies and industry guidance;
       develop and support network and server security training specific to STRI
       technology staff system administration responsibilities;
       perform periodic network and personal computer reviews to determine if peer-to-
       peer programs or any other unauthorized programs or services are installed;
       reinforce the necessity for all STRI system passwords to comply with Office of the
       Chief Information Officer password standards;
       disable, rename, or remove all unnecessary user accounts;
       remove the folders and files containing images supporting the external private
       website; and
       adjust all STRI websites to ensure that a privacy statement is included as well as
       ensure that the content is reviewed before the information is displayed on the
       website.

The Director of the Smithsonian Tropical Research Institute concurred with the audit
recommendations and has already begun taking proactive measures to secure its system
resources. Overall, we believe that the corrective actions taken are responsive to the
recommendations.
                                                  TABLE OF CONTENTS 


                                                                                                                                                  Paae 

1. Introduction .....................................................................................................................................

                                                                                                                                                  1

       A. Purpose         ...................................................................................................................................

                                                                                                                                                         1

       B. Scope and Methodology .........................................................................................................

                                                                                                                                      1

       C. Background .............................................................................................................................

                                                                                                                                               1

2. Results of Audit ...............................................................................................................................

                                                                                                                                               2

       STRI Information System Security .............................................................................................

                                                                                                                                  2

Table 1. Averages Based on Center for Internet Security Scores .......................................................3 


Table 2. Summary of STRI Network Analyses ..................................................................................
                                                                                                                          4


Appendix A. Industry Standards.......................................................................................................10 


Appendix B. Management ~ o m m e n t s f r o mDr. Ira Rubinoff, Director, STM .............................12 


                                          ABBREVIATIONS AND ACRONYMS

                  FBI                              Federal Bureau of Investigation
                  IT                               Information Technology
                  NIST                             National Institute of Standards and Technology
                  OCIO                             Ofice of the Chief Information OEficer
                  SANS                             SysAdmin, Audit, Network, Security Institute
                  STRI                             Smithsonian Tropical Research Institute
                  P2P                              Peer-to-Peer
                  SD                               Smithsonian Directive
                  SI                               Smithsonian Institution
                                    INTRODUCTION

A. Purpose

The purpose of the audit was to evaluate STRI information system controls for systems
access, server and network security,system changes and configuration management, physical
security, and disaster recovery planning.

B. Scope and Methodology

The audit was conducted from January 9,2003, to February 27,2003, in accordance with
generally accepted government auditing standards. The audit methodology consisted of
the following:
        identifying and reviewing applicable Institution policies and procedures related to
        system general controls, computer system security, and integrity of computer
        resources;
        comparing STRI's system security settings with industry and SI standards;
        evaluating controls to safeguard and protect networks;
        assessing the adequacy of controls to prevent and detect unauthorized activities
        including external intrusions, theft, or misuse of computers and networks; and
        utilizing guidance issued by the National Institute of Standards and Technology,
        National Security Agency, and Microsofi Corporation relating to system security
        configuration, and disaster recovery planning.

We reviewed:
       policies, procedures, and controls relating to system security and data integrity;
       controls over server and network configurations; and
       controls to prevent and detect unauthorized activities.

As part of our review, we conducted interviews with STRI technology and administrative
staff, and support contractors. We spoke with staff from STRI Information and
Technology and STRI contractors from HSBC Bank. Through interviews, we gained an
understanding of the practices employed concerning system configuration, network
analysis, system access, disaster recovery planning, and change management.

C. Background
The Smithsonian Tropical Research Institute has a 90-year history in Panama going as far
back as construction of the Panama Canal. The Institute has a scientific interest in
surveying the flora and fauna of the area for the purpose of controlling insect borne
diseases such as yellow fever and malaria. STRI scientific staff is composed of 10 different
nationalities and has a core staff of 33 scientists who are specialists in their field. In
addition, STRI manages and administers its information technology resources locally.
I
                                             RESULTS OF AUDIT

    STRI Information System Security

    Information system resources at STRI can be strengthened. Specifically,
          server configurations are not documented, not up-to-date, and do not meet
          industry standards;
          sensitive network and accounting system resources are vulnerable;
          no documented disaster recovery plan exists; and
          staff is using unauthorized peer-to-peer Internet file transferring programs.

    STRI systems are at risk because its staff has not performed any recent system security
    assessments'. Without periodic system security assessments STRI system resources are
    vulnerable and not up-to-date and could compromise financial transactions and disrupt
    or cease network and computer operations.

    Background

    We evaluated STRI system security and disaster recovery plan at Panama City, Panama.
    We used Smithsonian Directives and industry guidance and standards from the National
    Institute of Standards and Technology, General Accounting Office, National Security
    Agency, and Microsoft Corporation. The evaluation included a review of operating
    system configurations, user accounts, network ports, and vulnerable services. *

    Smithsonian Directive 115, Management Controls, revised July 23, 1996,lists standards
    that shall apply to Institution units. The directive requires managers to take systematic
    and proactive actions to develop and implement appropriate, cost effective management
    controls. It also requires that controls established shall provide reasonable assurance that
    assets are safeguard against waste, loss, unauthorized use, and misappropriation.

    Smithsonian Directive 931, Use of Computers e5 Networks, August 5,2002, requires system
    administrators to perform data back up and offsite storage of critical data. In addition,
    "Smithsonian Institution Computer Security Handbook," September 9, 1993, provides
    computer security policies and procedures for all Smithsonian components to develop
    disaster recovery plans. Disaster recovery safeguards consist of developing a contingency
    plan, storing the plan offsite, regularly backing up files and software, identifying an
    alternate offsite processing site, and testing the contingency plan. According to the
    Handbook, the purposes of a contingency plan are to determine actions that will
    minimize the effects of undesirable occurrences, document emergency response actions
    like system restart, and establish procedures for recovering from losses.
    Smithsonian Institution Technical Standard & Guideline IT-930-01, Automated
    Information System Security Planning, Version 1.O, November 2002, provides guidance
    to IT managers in producingpystem security planning documents and describes security-
    related planning activities. It also explains how security requirements are generated,

    'OCIO Guidance recommends performing security risk assessments to determine the extent of potential
    threats and risks with an automated information system throughout its life cycle. The output of this process
    helps identity appropriatecontrols for reducing or eliminating risks and vulnerabilities.
    'Registry settings and Novel1 servers were not evaluated.
tracked, incorporated, and tested within the lifecycle. Implementation of a sound
automated information system security planning process can help build a trusted
environment and provide security necessary to conduct business electronically at and
within the Institution.

Smithsonian Institution, Technical Reference Model (TRM), Version 1.0, December
2001, IT-920-01, applies to program area and technical managers, and others responsible
for information technology systems and services. Compliance is required unless
specifically waived by the Chief Information Officer. The TRM recognizes that the
Institution is composed of varied and incompatible hardware and software. The
heterogeneous nature of the institution's technology infrastructure has constrained its
ability to infuse new technology. The TRM attempts to apply an enterprise approach to
managing technology infrastructure. A more homogenous, standards-based, information
technology infrastructure will provide the foundation for distributed systems, which are
robust and scalable. The TRM attempts to establish consistent information and
communication services throughout the Institution. A standards approach will provide
the ability to update and replace technology in a more cost effective manner. The TRM
identifies Windows 2000 as the preferred desktop operating standard.

The Computer Security Act of1 987 requires the establishment of minimum acceptable
security practices related to federal computers. This act requires the identification and
protection of systems containing sensitive information and calls for a computer standards
program and security training for users.

Appendix A lists industry standards used to evaluate STRI information system resources.

Results

We evaluated STRI system configurations that included server and sub-network security.
Under the current system configuration, we determined that STRI servers and network
systems are vulnerable and should be strengthened to meet industry security standard
recommendations. We used the Center for Internet Security Scoring Tool as a basis to
evaluate each Microsoft NT server. The tool produces a score by applying the "Windows
Securi Scoring Tool" which is a number between one and ten, with ten being the most
         tY
secure. STRI falls in the low range of average scores with a score of 3.8. Table 1
summarizes the averages for hotfixes and server scores for each location. On a positive
note, the servers were up-to-date on service packs.

Table 1. Averages Based on Center for Internet Security" Scores
                            I ACCAPP I NAOSFTP 1 Webshield 1
                       I Average I        Server           Server     I   server     1
 No. of missing"
 hotfixes and
 security patches           7.67              8               7               8
 Missing senrice
 pack4                         0              0               0               0
 Score                        3.8           3.8              3.8            3.8


'The Scoring Tool criteria are divided into four categories: ( 1 ) Service Packs and Hotfmes, (2) Policies, (3) 

Security Settings and (4) Available Services and Other System Requirements. 

'STRI Windows NT servers had no missing service packs. 



                                                       3
   The failure to maintain servers with the most current versions is a risk that can be easily
   mitigated by maintaining software up-to-date with service packs and hotfixes." According
   to the NIST, maintaining and updating applications with the latest hotfixes, patches, and
   service packs is necessary to maintain the operational availability, confidentiality, and
   integrity of information technology systems. Not all vulnerabilities have related patches,
   therefore, system administrators must be aware of vulnerabilities and patches, and have a
   means to mitigate "unpatched" vulnerabilities through other methods.

   Although a tape backup process is in place, STRI had not implemented a disaster recovery
   plan for IT services. A disaster recovery plan assesses the adequacy and ensures continuity
   of operations if either a complete system failure or failure of system components occurs.
   For its system servers, system administrators have an established tape backup process.
   The tapes, however, are not stored off site. Our evaluation of the physical server
   conditions identified a clean and secure environment. Server room access is restricted by
   a card reader lock, fire suppression is available, and access logs reviewed periodically.

   As part of our network analysis, we performed network scans and limited penetration
   testing on the STRI network. Specifically, we researched and used the most common
   identified port and service vulnerabilities. We scanned the STRI network and were able to
   obtain access to critical computers and sensitive information at STRI. Table 2 shows a
   summary of weak computer access vulnerabilities and non-password compliance at STRI.
   Table 2. Summary of STRI Network Analyses
                                                                                     I Administrative I
                                                       Non                              Accounts &         P2P Internet
              Computers         Passwords           Compliant          Blank            Passwords          File Sharing
 Subnet        Scanned         Compromised          Passwords        Passwords         Compromised           Installed
   232             32                  39                55                16                 41                  16
   233            105                  26                26                12                 16                   1
   234             86                  11                11                10                  7                   0
   235              2                   0                 0                 0                  0                   0


   238              52                13                 13                 7                 12                   0
   239              97                20                 20                13                 16                   3
  Total            397               110                126                59                 92                  20 

Percentage                         27.71%             31.74%            14.86%             23.17%                5.04% 


   Our penetration testing successfully compromised STRI computers used by the
   accounting department to perform bank wire transfers and an IT department computer
   used to manage the STRI network resources. We were able to identify the accounting
   departments different wire transfers and timing pattern of its wire transfers. With this
   knowledge we could open any one and modify the electronic files that contained
   individual names, bank routing numbers, and amounts thereby possibly altering

   "A service pack corrects known problems and provides tools, drivers, and updates that extend functionality
   and keep the software code updated. Hotfures and security patches are intended for enterprise
   implementations and provide an extra level of security for mission-critical software systems. Specifically,
   security patches eliminate vulnerabilities by mitigating recognized exploits.
individual wire transfers that averaged about $21,000 every two weeks. Also, we were able
to gain access to 110 STRI user accounts or 27 percent that included the main computer
used to monitor and manage STRI network resources. A compromise of this machine
could provide an opportunity to cause havoc to STRI and SI networks that includes
disabling the STRI network communications."

In addition, from our network scans and analyses, we identified a STRI computer that is
being used to host files that link to a non-SI website. The website is of a former STRI
employee. The former employee has since resigned and left STRI all together as of July
200 1. Although STRI IT staff manages two web servers, we identified numerous other
STRI computers accessible through the Internet and some were hosting web sites. For
example, the NAOS Molecular Group maintains a website that links back to the STRI
main page. However, the NAOS website does not contain a privacy statement and it
contains a cartoon link that refreshes itself. The cartoons displayed on the NAOS website
are questionable and could be viewed as inappropriate. In addition, there is no control
on what type of images will be displayed since the cartoon is linked to a non-Smithsonian
website. We also identified other computers with Apache web server operating systems
that are vulnerable to several FBI and SANS Institute top 20 vulnerabilities.'

Further analyses of STRI computers identified that staff are using peer-to-peer programs
such as Kazaa a well recognized Internet file transfer program. Use of peer-to-peer
technology ( ~ 2 ~puts
                    " ) STRI systems and the SI network at risk. We found that staff was
using p2p programs such as instant messaging and Internet file sharing programs. Instant
messaging is used to communicate with others through the Internet and the file sharing
program is used for personal downloading of music and video files. As a result, STRI and
SI system resources are vulnerable to viruses, worms, and denial of service attacks.

Also, these well known file sharing programs pose a risk. Because shared files are
commonly video and music files, which are extremely large in size as compared to normal
network file trafic, they congest network links and unnecessarily occupy bandwidth
required for official network trafic. Further, storage of large files has the potential to fill
up hard drive and network file storage. It is well known that file sharing applications and
their use provide a conduit for malware to circumvent firewalls and enter networks
because almost all the sources of downloads originate from untrusted sources. Additional
risks include copyright infringements and viruses and Trojan horse program propagation.
STRI systems are at risk because the last system security assessment was performed in
1994. STRI IT staff relies on OCIO to provide guidance and assessments of its network,
server, and desktop computers. Information technology staff has applied its security
attention on keeping its Novell network and Novell file server's up-to-date and secure. In
addition, according to STRI IT management, computer resources have not been upgraded
to the OCIO Technical Reference Model because of budget funding limitations.
As a result, without periodic security assessments STRI system resources are vulnerable
and could disrupt or cease network and computer operations. In addition, without

%Although access was gained to the wire transfer files, no files, accounts, or amounts were altered.
 h he Apache web computers vulnerabilities include remote open secure socket layer vulnerable to the
Slapper Worm virus, traversal encoding, and ping of death denial of service.
"According to the SANS Institute, p2p technology is a communication model in which each computer has
the ability to initiate a communication session with other computers running p2p software. P2P
applications enable users to use the Internet to exchange files and communicate.
standard security system configurations STRI system resources are vulnerable to
unauthorized, undetected activities, and possible financial losses.

Conclusion

Based upon our configuration and network analyses, we believe that STRI can improve
systems security by introducing an assessment process into its IT administration duties.
Implementing security assessments and performing periodic network scans can identify
risks thereby limiting vulnerabilities and preventing system compromises.

Recommendations

We made 11 recommendations to the Director, Smithsonian Tropical Research Institute:

    1. Secure current identified vulnerabilities.

Management Comments

Concur. STRI IT staff has already begun updating its Windows NT servers and policies
and security settings have been set in the Fundware server. Completion dates for the
remaining Windows NT server is expected by April 25,2003. Network scans have been
performed and unauthorized ports and services will be closed by March 28, 2003.

Ofice of the Inspector General Response 


The Director's actions are responsive to the recommendation. 


   2. 	 Perform a systems security review as defined in SI Technical Standard and 

        Guideline IT-930-01, AIS Security Planning. 


Management Comments

Concur. STRI IT staff plans to perform a systems security review according to SI
Technical Standard and Guideline IT-930-01, AIS Security Planning with a planned
completion date of June 27,2003.

Ofice of the Inspector General Response 


The Director's actions are responsive to the recommendation. 


   3. 	 Develop and implement a semiannual security assessment process for system and
        network assets that includes server configuration evaluations and network scans
        based on OCIO and industry standards.

Management Comments

Concur. Beginning in September 2003, a security assessment will be performed
semiannually.
Office of the Inspector General Response 


The Director's actions are responsive to the recommendation. 


    4. 	 Use technical guidance to develop, document, update, and implement server and
       client configuration settings that includes application servers, web servers, and any
       other computer that is accessible and used on the Internet.

Management Comments

Concur. Implementation of the Technical Reference Model was initiated in the beginning
of 2003 and is contingent upon available budget. A target compliance date of August 29,
2003, is planned.

Ofice of the Inspector General Response

The Director's actions are responsive to the recommendation.

   5. 	 Develop and implement a disaster recovery plan in accordance with SI policies
        and industry guidance.

Management
    -      Comments

Concur. Corrective action has been initiated based on SI and industry guidance and is
contingent upon completion of recommendation two. September 26,2003 is the planned
target date.

Ofice of the Inspector General Response

The Director's actions are responsive to the recommendation.

   6. 	 Develop and support network and server security training specific to STRI 

        technology staff system administration responsibilities. 


Management Comments

Concur. Management plans to provide Windows NT and 2000 security training to its
server administrators and system security staff during the current fiscal year.

Office of the Inspector General Response 


The Director's actions are responsive to the recommendation. 


   7. 	 Perform periodic network and PC reviews to determine if p2p programs or any
       other unauthorized programs or services are installed and take appropriate
       administrative action when necessary as well as removal of these programs and
       files.
Management
    -      Comments

Concur. Management has begun eliminating P2P and unauthorized programs. Planned 

completion date of July 25,2003 is planned with future reviews performed semiannually. 


Office of the Inspector General Response 


The Director's actions are responsive to the recommendation. 


   8. 	 Reinforce the need that all STRI system passwords comply with OCIO password
        standards especially for information technology staff with administrative
        responsibilities.

Management Comments

Concur. Management plans that all passwords will comply with OCIO standards by July 

25,2003, 


Office of the Inspector General Response 


The Director's actions are responsive to the recommendation. 


   9. 	 Disable, rename, or remove all unnecessary user accounts, particularly within the
        accounting department.

Management Comments

Concur. Management plans to remove all unnecessary accounts by July 25,2003.

Office of the Inspector General Response 


The Director's actions are responsive to the recommendation. 


    10. Remove the folders and files containing images supporting the external private
        website.

Management Comments

Concur. The files supporting the external website have been removed as of February 27, 

2003. 


Office of the Inspector General Response 


The Director's actions are responsive to the recommendation. 


   11. Adjust all STRI websites to comply with SI standards of maintaining a privacy
       statement as well as ensuring content is reviewed before public display on the
       website.
Management
    -      Comments

Concur. Content of the website is being reviewed by the Office of Public Information 

with a target completion date of April 30,2003. 


Office of the Inspector General Response 


The Director's actions are responsive to the recommendation. 

Appendix A. Industry Standards

National Security Agency Research Study by Trusted Systems Services, Windows NT
Security Guidelines Considerations Q Guidelinesfor Securely Configuring Windows NT in
Multiple Environments, 1999, provides guidelines for countering known attacks on
Windows NT installations that expose or modify user data maliciously. The goal is to
make Windows NT as secure as reasonably and practically possible. Implicit in the
guidelines is the understanding that recommendations must be both effective against
certain threats and also practical. A balance is necessary between security and operations
because some controls impede operational capability.

NIST, "The Contingency Planning Guide for Information Technology Systems," December
2001, provides instructions, recommendations, and considerations for government IT
contingency planning. According to the guidance, some type of documented procedures
should be in place to provide for the recovery of files, address disaster recovery, and
identify critical processing data. The plan should allow for periodic testing and should
ensure that personnel understand their respective roles during a disaster.

NIST Special Publication 800-14, Generally Accepted Principles and Practices for Securing
lnformation Technology Systems, September 1996, defines eight principles used as an
anchor on which the federal community should base their information technology
security program. This guidance defines the purpose of computer security as a way to
protect an organization's valuable system resources, through the selection and application
of appropriate safeguards. A security program helps the organization's mission by
protecting its physical and financial resources, reputation, legal position, employees and
other tangible and intangible assets.

NIST Special Publication 800-18, Guide for Developing Security Plans for Information
Technology Systems, December 1998, states that the objective of system security planning
is to improve the protection of information technology resources. All federal systems
have some level of sensitivity and require protection as part of good management
practice. According to NIST, system security plans should document the protection of
the system. Additionally, the completion of system security plans is a requirement of the
Office of Management and Budget Circular A- 130, "Management of Federal Information
Resources," Appendix 111, "Security of Federal Automated Information Resources," and
Public Law 100-235, "Computer Security Act of 1987." The purpose of the security plan
is to provide an overview of the security requirements of the system and describe the
controls in place for meeting those requirements. The system security plan also delineates
responsibilities and expected behavior of all individuals who access the system.
NIST Special Publication 800-26, Security Self-Assessment Guidefor Information
Technology Systems, November 2001, states adequate security of information and the
systems that process it is a fundamental management responsibility. This document
provides guidance on applying a framework by identifying 17 control areas, such as those
pertaining to identification and authentication, and contingency planning. The guide
explains that officials must understand the current status of their information security
program and controls in order to make informed judgments and investments that
appropriately mitigate risks to an acceptable level. This self-assessment guide provides a
method for agency officials to determine the current status of their information security
program.
SysAdmin, Audit, Network, Security Institute (SANS),Peer-to-Peer Networking, October
29,2001, concludes that the use of p2p software is a credible threat to network security.
In addition, the limited documentation surrounding the technology hinders the capability
of network and system administrators to analyze and obtain knowledge of vulnerabilities
associated with its use. Often system administrators are unaware that users have
downloaded and installed these applications. This lack of awareness renders system
administrators incapable of protecting systems from the many p2p security loopholes.
SANS notes the following problems with p2p technology:
        unnecessary network bandwidth utilization that congests networks;
       illegal transfers that involve copyrighted material;
       information leakage and loss of control over the data on computers and networks;
       virus and Trojan propagation downloaded from untrusted sites; and
       Internet protocol and machine name disclosure outside the internal trusted
       network and firewall circumvention.
Appendix B. Management Comments from Dr. Ira Rubinoff, Director, STRI


 0        Smithsonian Tropical Research Institute                                             Memo
          Ollice of the Director




   Date March 13,2003
     To Thomas D. Blair, SI Inspector General
      cc SI: Dennis Shaw, Jason-Robert Scott, David Cole
         STRI: Georgina de Alba, Francisco Rivera
  From Ira Rubinoff
 Subject Review of draft audit report on information system controls at STRI

          Thank you for the opportunity to review the audit report on Information Systems Controls
          at STRI. We concur with all the recoinmendations of the report and in concurrence with
          the STRI IT department, the corrective action and target date for completing the action
          are indicated after each recommendation.

          STRI has a total of twelve servers. Eight servers use Novell as the network operating
          system and four servers use Windows NT. The report concentrates in the Windows NT
          environment. Novell servers were not evaluated during the audit. Our Novell servers are
          up-to-date and secure.

                                        Recommendations and Corrective Actions.

          1.       Secure Current Vulnerabilities.
                   a) Hotfixes and patches.
                   We started to update all Hotfixes and Patches in our NT servers on February 17,
                   2003. Target completion date: April 25,2003.

                   b) Policies and Security Settings.
                   Policies and Security Settings have not been set in the Fundware server. Polices
                   and Security Settings were completed in the remaining NT servers on February
                   28,2003. Target completio~ldate: March 28,2203.

                   c) Ports and Available Services.
                   Scans were performed. As a result, ports and services that were not authorized to
                   the users were closed as detected. Target completion date: May 30,2003.

          2.       Perform a Systems Security Review.
                   A Systems Security review will be performed according to SI Technical Standard
                   and Guideline IT-930-01. AIS Security Planning. The review will initiate in April

          SMITHSONIAN INSTITUl'ION
          Srnithsonian Tropical Research Institute
          Unit 0948
          APO AA 34002
          507 212 111 10 Telephone
          507 212.8150 Fay
                               E-mail
          rubinot~~~~tivoli.si.edu
          2003 and the target completion date is June 27,2003.

3. 	      Develop and implement a semiannual security assessment.
          Starting September 2003. a security assessment will be performed semiannually.

4. 	      Use technical guidance to develop. document. update, and implement server and
          client configuration settings.
          The impleinentation of the Teclinical Referenced Model was initiated at the
          begi~ulingof this calendar year. Coiiipletioll of this recommendation is contingent
          to budget constraints. Target completion date: August 29,2003.

5. 	      Develop and implement a disaster recovery plan.
          Corrective action will be initiated based on SI policies and Industry guidance for
          illis recommendation after recom~nendatioiinumber two is completed. Target
          co~npletioildate: September 26, 2003.

6. 	      Develop and support network and server security training.
          Sever Administrators will received NT and Windows 2000 security training, and
          hands-on training from ST System Security personnel during the current fiscal
          year.

7. 	      Perform periodic network and PC reviews.
          The elimination of p2p programs and unauthorized programs has been initiated.
          We are planning to complete our first review on July 25,2003.
          Futures reviews will be iilcluded in the semiannual security assessment.

8. 	      Con~plywith OClO password standards.
          All passwords will comply with OClO standards. Target completion date: July 25,
          2003.

9. 	      Disable, rename, or reinove all unnecessary accounts.
          Unnecessary accounts will be removed. Target completion date: July 25,2003.

10. 	     Remove the folders and fiIes containing images supporting the external private
          website.
          Completion date: February 27,2003.

11.       Adjust all STRI website to comply with S1 standards of maintaining a privacy
          statement as well as ensuring content is reviewed before public display on the
          website.
          Content of website is being reviewed by the Office of Public Information. Target
          completion date: ApriI 30,2003.


SMITHSONIAN INS'I'Il'UTlON
Smithsonian Tropical Research Institute
Unit 0948
APO AA 34007
507.212.8l I0 'lblephone
507.212.8150 I'OX
ruhinotl%j3livoli.si.edu E-mail
